NO:

 

IN THE

SUPREME COURT OF THE UNITED STATES
RICHIE WHEELER,
PETITIONER,
v.
UNITED STATES OF AMERICA,

RESPONDENT.

 

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

 

MOTION FOR LEAVE TO PROCEED IN F ORMA PAUPERIS

 

Petitioner, Richie Wheeler, pursuant to the Supreme Court of the United
States Rule 39 and 18 U.S.C. § 3006A(d\6), asks for leave to file the
accompanying Petition for a Writ of Certiorari to the United States Court of
Appeals for the Third Circuit without repayment of costs and to proceed in forma

pauperis. Petitioner was represented by counsel appointed under the Criminal
Justice Act, 18 U.S.C. § 3006A(b)(c), in the United States Court of Appeals for the
Third Circuit, and consistent with the Supreme Court of the United States Rule 39,
no Affidavit is required to be filed in support of this Motion.

Respectfully submitted,

MW Siey B. Greenman

ROY B. GREENMAN, ESQ. #010631974
BUDIN, GREENMAN & GREENMAN
Attorneys for Defendant

1379 Morris Avenue

Union, New Jersey 07083

(908) 688-6444

Rbg648@aol.com

CJA Counsel for Petitioner—-Richie Wheeler

 
